Office of Audit Services Report | Office of Inspector General
Use of Discounted Airfares by the Office of the Secretary
August 26, 2008 | Audit A-03-07-00500
Executive Summary
We found that Office of the Secretary (OS) travelers used discounted airfares for only 721 (16 percent) of the 4,397 trips that were potentially available at both standard and discounted fares during fiscal year 2006.  OS uses the GovTrip web-based travel system, which a General Services Administration (GSA) contractor developed, to plan and authorize travel.  For many trips, two contract fares are available:  a discounted fare (referred to as the "standard" fare) and a highly discounted fare (referred to as the "discounted" fare).
Governmentwide during this period, according to GSA, Federal civilian employees used discounted fares for an average of 50 percent of the domestic trips for which both standard and discounted fares were available.  We calculated that OS potentially could have saved $530,000 if OS travelers had used discounted fares for all trips for which such fares were potentially available or $180,000 if OS travelers had used discounted fares at the average 50-percent Governmentwide utilization rate.
We recommended that OS increase the understanding of OS travelers and administrative staff by educating them on how to identify and select discounted fares in GovTrip and work with GSA to clarify the display of flights and fares in GovTrip so that OS travelers can more easily locate and select discounted fares.  OS concurred with our recommendations.
Complete Report
Download the complete report  (PDF)
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
Return to General Department